20-5446
IN THE SUPREME COURT
OF THE UNITED STATES
OCTOBER TERM 2020
No.
JIN HUANG ZHENG,
PETITIONER,

Supreme Court, U.S.
FILED

AUG 0 5 2020
OFFICE OF THE CLERK

v.
UNITED STATES OF AMERICA,
RESPONDENT.
MOTION FOR LEAVE TO PROCEED
IN FORMA PAUPERIS
Pursuant to Title 18 United States Code §3006A(d)(7) and
Rule 39 of this Court, Petitioner Jin Huang Zheng, asks leave to
file the attached Petition for Writ of Certiorari to the United
States Court of Appeals for the Seventh Circuit without prepayment
of fees or costs and to proceed in forma pauperis.
Petitioner was represented by counsel retained for trial and
is now represented in district court by court appointed attorney.

Respectfully submitted,

Nv—"'Jin Huang Zheng^J
Petitioner
USM No. 12564-028
Metropolitan Correctional Center
71 W. Van Buren St.
Chicago, IL 60605

Dated: August 4, 2020

